                                    FEDERAL COMMUNICATIONS COMMISSION


                                         OFFICE OF THE
                                      INSPECTOR GENERAL
                                         October 1, 2007 - March 31, 2008




Federal Communications Commission
Office of the Inspector General




445 12th St., SW                                   Kent R. Nilsson
Washington DC 20554
www.FCC.gov/OIG                                  Inspector General
                                                                  Report Fraud, Waste or Abuse to:


                                                                                           Email
                                                                                      Hotline@FCC.gov

                                                                                       Call Hotline:
                                                                                      202.418.0473 or
                                                                                       888.863.2244



                                                                                   www.FCC.gov/OIG



         The Federal Communications Commission
                        (left to right)
                                                                  You are always welcome to write or visit.
   Deborah Taylor Tate, Commissioner; Michael J. Copps,
Commissioner; Kevin J. Martin, Chairman; Jonathan S. Adelstein,   Office of Inspector General
    Commissioner; Robert M. McDowell, Commissioner                Federal Communications Commission
                                                                  Portals II Building
                                                                  445 12th St., S.W. Room 2-C762
OFFICE OF INSPECTOR GENERAL
                                                             memorandum
MEMORANDUM

DATE:		        April 30, 2008

REPLY TO
ATTN OF:	      Inspector General

SUBJECT:	      Semiannual Report

TO:		          Chairman, Federal Communications Commission


In compliance with Section 5 of the Inspector General Act, as amended, 5 U.S.C. App. § 5, I have attached my
report summarizing the activities and accomplishments of the Office of the Inspector General ("OIG") during
the six-month period ending March 31, 2008. In accordance with Section 5(b) of that Act, it would be appreci-
ated if this report, along with the report that you prepare as Chairman of the Federal Communications Commis-
sion ("FCC"), were forwarded to the appropriate Congressional oversight committees within 30 days of your
receipt of this report.

During this reporting period, OIG activity has focused on investigations, audits and Universal Service Fund
oversight.

This report describes audits that are in process, as well as those that have been completed during the preced-
ing six months. OIG investigative personnel continued to address issues referred to, or initiated by, this office.
Where appropriate, investigative reports have been forwarded to the Commission's management for action.

This office is committed to maintaining the highest possible standards of professionalism and quality in its au-
dits, investigations, inspections and consultations and we welcome any comments or suggestions that you might
have. Please let me know if you have any questions or comments.



Kent R. Nilsson
Inspector General

Enclosure
cc: Chief of Staff
    Managing Director




                                                          Memorandum to Chairman, Federal Communications Commission
              Table of Contents
                 Introduction                                       3


                 OIG Management Activities                          5


                        Office Staffing                             6


                        Office Modernization                        7


                        Internship Program                          8


                        Legislative and Policy Matters              8


                 Audit Activities                                  11


                        Financial Audits                           12


                        Performance Audits                         15


                        Universal Service Fund (USF) Oversight     17


                 Investigations                                    25


                        Activity During this Period                27


                        Significant Investigation Case Summaries   28


                        OIG Hotline                                41


                 Reporting Requirements of the
                 Inspector General Act                             45

                                                                   46
                        Section 5(a)

                        OIG Reports with Questioned Costs          48

                        OIG Reports with Recommendations that
                        Funds Be Put To Better Use                 48


Table of Contents - March 2008   2
                                                       Introduction
The   Federal    Communications       Commission       sures compliance with the requirements of the

(“FCC”) is an independent regulatory agency,           Inspectors’ General Act and is dedicated to as-

with authority delegated by Congress to regu-          sisting the Chairman in his continuing efforts to

late interstate and foreign communications by          improve the effectiveness and efficiency of the

radio, television, wire, satellite and cable. The      Federal Communications Commission. The In-

FCC’s jurisdiction covers the fifty states, the Dis-   spector General (“IG”), Kent R. Nilsson, reports

trict of Columbia, the Commonwealth of Puerto          directly to the Chairman. The IG’s staff consists

Rico and all U.S. territories.                         of accountants, attorneys, auditors, economists,

                                                       and investigators. Principal assistants to the IG

The FCC consists of a Chairman and four Com-           are: David L. Hunt, Assistant Inspector Gener-

missioners, who are appointed by the President         al (“AIG”) for Investigations/General Counsel;

and confirmed by the United States Senate.             Curtis Hagan, AIG for Audits; William K. Ga-

Kevin J. Martin serves as Chairman. Michael J.         ray, AIG for Universal Service Fund Oversight;

Copps, Jonathan S. Adelstein, Deborah Taylor           Thomas Cline, AIG for Policy and Planning; and

Tate and Robert M. McDowell serve as Commis-           Harold Shrewsberry, AIG for Management.

sioners. Most of the FCC’s employees are located

in Washington, D.C. at the Portals II building,        This semiannual report includes the major ac-

which is located at 445 12th St., S.W., Washing-       complishments and activities of the OIG from

ton, D.C. Field offices and resident agents are        October 31, 2007 through March 31, 2008, as

located throughout the United States.                  well as information on the IG’s goals and future

                                                       plans.

The Office of the Inspector General (“OIG”) en-




                                                                            Introduction - March 2008      3
Did you
 know?
 Our investigations
  have been increasing
   at a rate of over 35%
    per year.
OIG Management
    Activities
       OFFICE staffing

    office modernization

    internship program

 legislative & Policy matters
              OIG Management Activities
             Office Staffing                           ees for a period not to exceed four years. These

                                                       new hires will enhance the FCC OIG’s audits and

Additional personnel, as well as funding to sup-       investigations capabilities. These additional re-

port the work of the Office, are essential to meet-    sources will also provide the OIG with resources

ing the objectives of the Inspector General Act        that are essential to performing high risk audits

and fulfilling the responsibilities of the Inspector   where there are indications of fraud, waste or

General that are contained in section 0.13 of the      abuse of Universal Service Program funds. Addi-

Commission’s rules. So far, it has been possible to    tional support staff consisting of a mathematical

make progress because of the willingness of the        statistician, a budget analyst, a contract specialist

Chairman and his staff to support the work of this     and a management specialist will strengthen the

Office.   When the IG was appointed in January         OIG’s ability to manage an increasing number of

2006, the Office had 10 professional employees.        audits that, in FY 2008, will total more than 800.

There are now 22 professionals and 3 support

personnel. With each addition, the professional        These funds also provide resources for contract-

training, experience and personal commitment           ing out low income, rural health care and contrib-

to improving the administration of the Commis-         utor audits. These audits are part of the second

sion’s programs and eliminating fraud, waste and       round of Improper Payment and Information Act

abuse has increased. Additional personnel, how-        (“IPIA”) and attestation audits planned for FY

ever, are needed to meet the increasing demands        2008. These two audit programs plus additional

that are being placed on this Office as the Commis-    audit work in other areas round out the IG’s USF

sion’s programs increase in size and complexity.       audit plan for FY 2008. The results of these audits

                                                       will be used to calculate the risk of erroneous pay-

In January 2008, the FCC OIG received $21.48 mil-      ment measurements required by the IPIA and,

lion dollars from the Universal Service Fund in        where indicated, form the basis for civil recover-

support of the OIG’s Universal Service Program         ies, fines, forfeitures and criminal prosecutions.

oversight mission. The funds are being obligat-

ed to support the hiring of temporary employ-          Our staff consists of well-trained, seasoned pro-


6   OIG Management Activities - March 2008
               OIG Management Activities
fessionals, most of whom have one or more profes-               Office Modernization
sional certifications. We support the efforts of our

staff to expand their bodies of knowledge and pro-       We have reported in the past that the Office is be-

fessional recognition, and the Chairman has fund-        ing modernized to insure that it will be prepared

ed examination preparation for the Certified Pub-        to manage and process Universal Service Fund

lic Accountant and Certified Information System          (“USF”) oversight activity, financial statements and

Security Professional designations as well as other information technology audits of the FCC and its

professional training programs. In our continuing external program segments, financial controls au-

efforts to increase the expertise of our audit and in-   dits of the FCC and its external program segments,

vestigative staffs, members of this Office have also and a steadily increasing volume of complex in-

attended classes at the Inspector General Criminal vestigations. As noted above, the Commission, the

Investigative Academy, other federal Inspectors          President and Congress have supported incremen-

General training programs, master’s level classes tal funding to improve the OIG’s Universal Service

at colleges and universities, and other training         Fund oversight mission. These funds are providing

programs. In addition, we have leveraged our ex-         additional personnel with which to perform this

pertise in accounting and auditing to revitalize the     critical mission. The OIG is also purchasing state

FCC’s professional training for the Commission’s         of the art software and hardware to assist auditors

Certified Public Accountants, thereby contributing and investigators in accomplishing this mission.

to improving the quality of professional education

available to all of the Commission’s accountants.        Funding is in place for a knowledge management

                                                         system. The requirements document is under de-

During this period, David Hunt, Assistant Inspec-        velopment. This new system will increase the OIG’s

tor General for Investigations and General Coun-         ability to manage audits, investigation case files,

sel, received the Executive Council on Integrity and     documents, reporting data and project tracking ac-

Efficiency’s Award for Excellence in investigations      tivities thereby facilitating the management of hun-

and the FCC’s Gold Medal for outstanding service.        dreds of audits and investigations. In FY 2007, Uni-

                                                         versal Service Fund oversight required that the IG


                                                                OIG Management Activities - March 2008     7
               OIG Management Activities
direct the Universal Service Administration Com-           These internships have proven to be rewarding

pany (“USAC”) to perform 459 USF beneficiary               experiences for all participants. Students leave

and contributor audits. This year, the IPIA formu-         with a good understanding of how a govern-

la and other considerations dictated that the num-         ment agency operates, and they have the oppor-

ber of audits increase to more than 800. The OIG           tunity to encounter challenges while enjoying the

knowledge management system will expand the                rewards that can come from public service. In

IG’s ability to manage audits, store and retrieve doc-     turn, the Office has benefited from the students’

uments and working papers, manage investigation excellent work performance that, in part, has re-

case files, collect data, and provide an overview of au-   flected their youth, exuberance, and special skills.

dit and investigation status and project milestones.

                                                                          Legislative &
         Internship program                                             Policy matters


The OIG welcomes college interns during the                Pursuant to section 4(a)(2) of the Inspector Gen-

fall, spring and summer semesters. Most of these           eral Act of 1978 (IG Act), 5 U.S.C.A. App. § 4(a)

students take their internships for credit.         Re-    (2)   as amended, our Office monitors and re-

cent interns have come from schools across the             views existing and proposed legislation and

country including American University, Arizona regulatory proposals for their potential impact

State University, DePauw University, George-               on the OIG and the FCC’s programs and op-

town University, Hamilton College, James Madi-             erations. Specifically, we perform this review to

son University, Marymount College, Long Island             evaluate the proposals’ potential for encourag-

University, North Carolina State University, Pur-          ing economy and efficiency while helping to re-

due University, the University of California at            duce fraud, waste, abuse, and mismanagement.

Berkeley, the University of California at Davis, During this reporting period, the Office moni-

the University of Maryland Law School, the Uni-            tored legislative activities affecting the activities

versity of North Carolina, and Xavier University.          of the OIG and the FCC. The Office also moni-

                                                           tored legislation and legislatively related pro-


8   OIG Management Activities - March 2008
              OIG Management Activities
posals that may, directly or indirectly, affect the

ability of IGs to function independently and ob-      Elimination and Recovery Act of 2008, S. 2583,

jectively. Specifically, we reviewed proposed leg-    110th Cong. (2008). We make no recommenda-

islation that could have affected our functions in tions concerning these legislative initiatives and

the FY 2008 Consolidated Appropriations Act, the      proposals in this report. In addition to legisla-

National Defense Authorization Act for FY 2008,       tion, the OIG continuously monitors FCC policy

Pub.L. 110-181 (2008) (FY 2008 Consolidated Ap-       development and provides input as appropriate.

propriations Act) and the Improper Payments




                               FCC Headquarters Building
                                  Portals II Building


                                                             OIG Management Activities - March 2008   9
Did you
know?
In 2007, the USF
 provided $7 billion to
  assist schools and
   libraries, rural health
    care providers, low
     income consumers and
      rural or remote
       telecommunications
        providers.
 audit Activities

        financial audits

      performance audits

universal service fund oversight
              audit activities
                                       financial audits


Financial statement audits provide assurance as        by the Inspector General, Clifton Gunderson, LLP

to whether the agency’s financial statements are       (CG-LLP), an independent certified public ac-

presented fairly in all material respects.   Other     counting firm, performed the audit of the FCC’s

objectives of financial statement audits are to pro-   FY 2007 consolidated financial statements in ac-

vide an assessment of the internal controls over       cordance with the aforestated standards; OMB

transaction processing for accurate financial re-      Bulletin No. 07-04, Audit Requirements for Feder-

porting and an assessment of compliance with           al Financial Statement, amended; and applicable

applicable laws and regulations.                       sections of the U.S. Government Accountability

                                                       Office (GAO)/President’s Council on Integrity &

 Audit of the Federal Communications                   Efficiency (PCIE) Financial Audit Manual.

 Commission Fiscal Year 2007 Consoli-
        dated Financial Statements                     CG-LLP issued its financial audit report to the

                                                       Commission’s management on November 13,

In accordance with the Accountability of Tax Dol-      2007. The audit report included an unqualified

lars Act of 2002, the FCC prepared consolidated        opinion on the financial statements, a report on

financial statements for the 2007 fiscal year in ac-   internal controls and a report on the Commis-

cordance with Office of Management and Bud-            sion’s compliance with selected laws and regu-

get (OMB) Circular A-136, Financial Reporting          lations. Commission management agreed with

Requirements. The Chief Financial Officers Act         the findings and recommendations contained in

of 1990 (CFO Act), as amended, requires the FCC        those reports. The highlights of each report are

IG, or an independent external auditor selected        summarized below.

by the Inspector General, to audit FCC financial

statements in accordance with government audit-        Independent Auditor’s Report on Inter-
ing standards issued by the Comptroller General         nal Controls over Financial Reporting
of the United States. Under a contract supervised



12   Audit Activities - March 2008
                                                  audit activities
                                         financial audits


In performing its testing of internal controls nec-       the financial statements will not be prevented or

essary to achieve the objectives in OMB Bulletin          detected by the entity’s internal controls. CG-LLP

No. 07-04, CG-LLP identified significant deficien-        identified significant deficiencies that need to be

cies in the design or operation of the FCC’s inter-       remedied by:

nal controls that, in its judgment, could adversely

affect the FCC’s ability to record, process, summa-       •	 Improving financial reporting at the FCC en-

rize, and report financial data consistent with the          tity level and at the FCC component level;

assertions by management in its financial state-          •	 Fully implementing the requirements of the

ments. These matters were categorized as signifi-            Debt Collection Improvement Act; and

cant internal control deficiencies. The American          •	 Complying with OMB Circular No. A-130,

Institute of Certified Public Accountants defines            Requirement for a Comprehensive Security

“significant deficiency” as a control deficiency or          Plan.

combination of control deficiencies, that adverse-

ly affects the entity’s ability to initiate, authorize,    Independent Auditor’s Report on Com-
record, process, or report financial data reliably          pliance with Laws and Other Matters
in accordance with generally accepted account-

ing principles to such an extent that there is more       Commission management is responsible for com-

than a remote likelihood that a misstatement of           plying with laws and regulations applicable to

the entity’s financial statements that is more than       the FCC. To obtain reasonable assurance as to

inconsequential will not be prevented or detected         whether the Commission’s financial statements

by the entity’s internal control. CG-LLP did not          are free of material misstatements, Clifton Gun-

consider any of the significant deficiencies to be        derson, LLP performed tests of compliance with

material weaknesses. A “material weakness” is a           provisions of applicable laws and regulations to

significant deficiency that results in more than a        ascertain if noncompliance existed that could have

remote likelihood that a material misstatement of         a direct and material effect on the determination



                                                                           Audit Activities - March 2008   13
               audit activities
                                      financial audits

of financial statement amounts, as well as certain    mission’s management. Clifton Gunderson , LLP

other laws and regulations specified in OMB Bul-      performed the underlying engagements behind

letin No. 07-04. Clifton Gunderson, LLP limited       that report and we monitored CG-LLP’s efforts

its tests of compliance to these provisions and did   to ensure compliance with Government Auditing

not test compliance with all laws and regulations     Standards as well as other applicable standards.

that are applicable to the FCC.                       The FCC earned an unqualified opinion on its

                                                      special-purpose financial statements. The audi-

Clifton Gunderson, LLP’s tests disclosed the fol-     tor’s report disclosed no material weaknesses in

lowing cases of noncompliance with laws and           internal controls over the financial reporting pro-

regulations required to be reported under Gov-        cess for the statements and no instances of non-

ernment Auditing Standards and OMB Bulletin           compliance. This report was provided to the U.S.

No. 07-04:                                            Department of Treasury’s Financial Management

                                                      Service and the U.S. Government Accountability

•	 The Federal Managers’ Financial Integrity Act      Office (GAO) as required by statute.

     of 1982 as outlined in OMB Circular No. A-127,

     Financial Management Systems; and                      Management and Performance
•	 The Debt Collection Improvement Act of                               Challenges
     1996.

                                                      On October 16, 2007, we issued our annual state-

     Report on Special-Purpose Financial              ment to the Chairman summarizing our assess-

        Statements and Agreed-Upon                    ment of the most serious management challenges

                   Procedures                         facing the FCC in FY 2008 and beyond. We iden-

                                                      tified the Universal Service Fund, the Telecom-

During this reporting period, we also transmitted     munications Relay Service Fund, and the need to

a final report covering the Commission’s FY 2007      modernize the FCC’s information technology and

special-purpose financial statements to the Com-      financial management infrastructures as signifi-


14    Audit Activities - March 2008
                                              audit activities
                                      FINANCIAL audits

cant management challenges. Management con-           on Integrity & Efficiency (PCIE) Financial Audit

curred with the challenges that we identified and     Manual. This audit is in progress.

included our letter and its response in the FCC’s

Fiscal Year 2007 Performance and Accountability       Performance audits are systematic examinations

Report, released November 15, 2007.                   that are conducted to assess the performance of

                                                      a government program, activity, or function so

 Audit of the Federal Communications                  that corrective action can be taken, if appropriate.

 Commission Fiscal Year 2008 Consoli-                 Performance audits include audits of government

        dated Financial Statements                    contracts and grants with private sector organiza-

                                                      tions, as well as government and non-profit or-

The Chief Financial Officers Act of 1990 (CFO Act),   ganizations that determine compliance with con-

as amended, requires the FCC Inspector Gen-           tractual terms, Federal Acquisition Regulations

eral, or an independent external auditor selected     (“FAR”), and internal contractual administration.

by the Inspector General, to audit FCC financial

statements in accordance with government audit-          Telecommunications Relay Service
ing standards issued by the Comptroller General

of the United States. Under a contract supervised     The Telecommunications Relay Service (“TRS”)

by the Inspector General, Clifton Gunderson LLP,      Fund compensates communications service

an independent certified public accounting firm,      providers for the costs of providing interstate

is performing the audit of the FCC’s FY 2008 con-     telephone transmission services that enable a

solidated financial statements that we expect will    person with a hearing, or speech, disability to

be performed in accordance with the aforestated       use such services to communicate with a person

standards; OMB Bulletin No. 07-04, Audit Require-     without hearing or speech disabilities. Distribu-

ments for Federal Financial Statement, amended;       tions from the fund have grown substantially in

and applicable sections of the U.S. Government        recent years and there is always a risk of fraud

Accountability Office (GAO)/President’s Council       and improper payments in the absence of effec-


                                                                       Audit Activities - March 2008     15
               audit activities
                                      PERFORMANCE audits

 tive controls and close, and continuing, over-            Comments, Consumer Inquiries
 sight. During this reporting period, the OIG                        and Complaints
 completed audits of two TRS providers. These

 audits found several deficiencies in supporting      In providing service to the public, the FCC re-

 documentation for costs reported and minutes         ceives and reviews comments in FCC proceed-

 of service provided, as well as in the reporting     ings and provides informal mediation and res-

 of inflated costs. The providers did not agree       olution of consumer inquiries and complaints.

 with the results of these audits and audit resolu-   During this reporting period, the OIG continued

 tion is in progress. Audits of other TRS provid-     its work in assessing the effectiveness of manage-

 ers are also in progress.                            ment controls over processes for receiving and

                                                      processing public comments, consumer inqui-

      Wireless Network Security Review                ries, and consumer complaints, particularly in

                                                      terms of the timeliness of responses to consum-

 As part of the Inspector General’s on-going as-      ers on actions taken to resolve their complaints.

 sessment and testing of the security of FCC in-      This project is on-going.

 formation systems, we issued a report that re-

 viewed management controls over risks arising          Fiscal Year 2008 Federal Information
 from wireless network technology that utilized        Security Management Evaluation and
 guidelines published by the National Institute of                Risk Assessment Act
 Standards and Technology (NIST). The review

 identified several control areas (i.e., manage-      The Federal Information Security Management

 ment, technical and operational) that should be      Act (FISMA) focuses on the programmatic man-

 strengthened. FCC management concurred in            agement, implementation, and evaluation of

 the results of that review.                          agency security systems. A key FISMA provision

                                                      requires that each Inspector General perform an

     Review of Processes for Filing Public            annual evaluation of his or her agency’s infor-


16    Audit Activities - March 2008
                                              audit activities
                    Universal Service Fund (USF) oversight

mation security programs. The objective of this      Libraries and the High Cost Programs. We will

evaluation is to examine the Commission’s secu-      also summarize significant investigative activity

rity program and practices with respect to major     related to these programs.

information system applications. To address this

requirement, we test the effectiveness of security      Update on OIG Oversight Activities
controls for a subset of the Commission’s systems

and the FCC’s privacy management. This proj-         As a preliminary matter, the Inspector General di-

ect is in progress and should be completed by the    rected the Universal Service Administrative Cor-

end of the next reporting period.                    poration (“USAC”) to enhance the education of

                                                     its contract auditors to include training as to how

                USF Oversight                        to identify fraud, waste and abuse. The OIG also

                                                     conducted on-site reviews of the audit field work

In the last semiannual report, we noted that the     in its effort to improve the quality of the on-going

first round of random statistical sampling attest    audits.

audits, to determine whether USF programs com-

ply with the Commission’s rules and regulations,     As stated in the last semiannual report, the first

had been completed. In addition, sampling meth-      round of audits field work was completed except

odologies and attest audit protocols were also       for the contributor audits. During this reporting

constructed in an effort to develop an assessment    period, all field work was completed and 411 of

program consistent with the Improper Payments        the 459 audit reports have been finalized. The

Information Act of 2202, Public Law No. 107-300      remaining 48 contributor audit reports are in the

(“IPIA”). In this section, we provide an update on   final stages of review. Efforts to improve the pro-

our current oversight activities of the USF          grams and recover funds are under way. With

program including 650 audits of the Schools and




                                                                      Audit Activities - March 2008   17
              audit activities
                       Universal Service Fund (USF) oversight

FCC OIG guidance, USAC has identified areas           payments amounted to approximately $1.293

that can improve the USF programs based on            billion. The USF funds specifically identified for

these audit results. The first round of USF audits    recovery in the first round of audits is $6,170,410,

estimated statistically that potential improper       as specified in the following table.

                                                                                              Potential
                                                                                             Improper
              Beneficiary                       Program                 Location              Payment
 Sioux Valley Canby Campus                 Rural Health Care               MN                      $619
 Sterling Regional Medical Center          Rural Health Care               CO                    $2,032
 Ninilchik Community Clinic                Rural Health Care               AK                    $1,165
 Cincinnati City School District          Schools and Libraries            OH                      $676
 Cobb County School District              Schools and Libraries            GA                   $14,447
 Fort Hancock Independent School
 District                                 Schools and Libraries            TX                    $2,102
 Bibb County Public Schools               Schools and Libraries            GA                      $913
 Boyden -Hull Community School
 District                                 Schools and Libraries            IA                    $3,410
 San Diego City Unified School
 District                                 Schools and Libraries            CA                    $6,103
 Highland School District                 Schools and Libraries            WA                      $838
 Fairfax Elementary School District       Schools and Libraries            VA                    $5,676
 Belen Consolidated Day School            Schools and Libraries            NM                  $501,710
 District of Columbia Public Schools      Schools and Libraries         DC                      $45,312
 Columbus Public Schools                  Schools and Libraries            OH                  $278,871
 De Kalb County School District           Schools and Libraries            GA                    $2,315
 Georgia Board of Regents                 Schools and Libraries            GA                   $18,123
 Aldine Independent School District       Schools and Libraries            TX                $2,299,353
 New York City Board of Education         Schools and Libraries            NY                  $701,646
 Municipal Telephone Exchange             Schools and Libraries            MD                   $20,086
 San Bernardino City Unified School
 District                                 Schools and Libraries            CA                   $20,711
 Connecticut Educator’s Network           Schools and Libraries            CT                  $122,825
 Los Fresnos Consolidated
 Independent School District              Schools and Libraries            TX                  $263,277


18   Audit Activities - March 2008
                                        audit activities
                Universal Service Fund (USF) oversight

                                                                                    Potential
                                                                                   Improper
            Beneficiary                    Program            Location              Payment
Lummi Tribal School (New
Construction)                        Schools and Libraries       WA                  $171,400
The Ohio Public Library
Information Network                  Schools and Libraries       OH                    $8,424
Washington Unified School District   Schools and Libraries       CA                  $197,992
eiNetwork                            Schools and Libraries       PA                      $621

Paterson School District             Schools and Libraries       NJ                   $77,018
San Benito Consolidated
Independent School District          Schools and Libraries       TX                  $316,951
Santa Clara Day School               Schools and Libraries       NM                  $102,067
Springfield School District 186      Schools and Libraries        IL                  $21,164
Wake County North Carolina
Public School System                 Schools and Libraries       NC                   $10,755
Wolf Creek Elementary School         Schools and Libraries       SD                  $123,657
California Youth Authority
California Education Authority       Schools and Libraries       CA                    $1,692
Diocese of Sioux Falls               Schools and Libraries       SD                   $14,720
Grainger County School District      Schools and Libraries       TN                    $4,756
Guntersville City School District    Schools and Libraries       AL                    $5,115
Jefferson County Public Schools      Schools and Libraries       KY                   $11,209
Lincoln Henricks Ivanhoe
Elementary School                    Schools and Libraries       MN                    $1,906
Merced City Elementary School
District                             Schools and Libraries       CA                    $9,573
Monterey County Office of
Education                            Schools and Libraries       CA                   $10,198
Tina Avalon School District R2       Schools and Libraries       Mo                   $11,876
Amery Telecom, Inc.                      Low Income              WI                      $772
Central Telephone. Company – NC          Low Income              NC                      $431
Central Telephone Company -
Nevada                                   Low Income              NV                    $2,215
Sage Telecom Of Texas, L.P.              Low Income              TX                    $2,520


                                                             Audit Activities - March 2008   19
                audit activities
                         Universal Service Fund (USF) oversight

                                                                                             Potential
                                                                                            Improper
                Beneficiary                       Program                Location            Payment
 Taconic Telephone Corporation                  Low Income                 NY                     $316
 United Utilities Inc.                          Low Income                 AK                     $616
 Vivian Telephone Company                       Low Income                  SD                  $1,785
 Dobson Telephone Company                       Low Income                 OK                   $1,142
 CenturyTel Of Arkansas, Inc.                   Low Income                 AR                     $694
 CenturyTel Of Washington, Inc.                 Low Income                 WA                   $8,168
 Indiana Bell Telephone Company                 Low Income                  IN                    $341
 Northwest Iowa Telephone
 Company, Inc.                                  Low Income                  IA                    $428
 Pacific Bell                                   Low Income                  CA                $552,513
 Southwestern Bell-Kansas                       Low Income                  KS                    $436
 Southwestern Bell-Oklahoma                     Low Income                 OK                     $404
 Verizon California Inc. - CA (GTE)             Low Income                  CA                    $795
 Verizon New York Inc.                          Low Income                 NY                  $25,297
 Western Wireless Corporation dba
 WWC License LLC                                Low Income                 ND                  $79,634
 Mt. Vernon Telephone Company                    High Cost                  WI                    $980
 West Iowa Telephone Company                     High Cost                  IA                  $1,800
 Pigeon Telephone Company                        High Cost                 MI                   $1,862
 Noxapater Telephone Company                     High Cost                 MS                  $12,700
 Ogden Telephone dba Frnter                      High Cost                 NY                   $6,200
 ACS Wireless                                    High Cost                 AK                  $14,245
 Hopper Telecom Company                          High Cost                  AL                 $36,900
 Chequamegon Telecommunications
 Company                                         High Cost                  WI                  $3,912

 Total                                                                                      $6,170,410
                                                       ceeded 9% in most USF program segments. That
The OIG’s initial statistical analysis, presented in
                                                       initial assessment provided the following errone-
the last semiannual report, showed that, although
                                                       ous payments rates and estimated erroneous pay-
the audits indicated general compliance with the
                                                       ments: Low Income, a 9.5% error rate (estimated
Commission’s rules, erroneous payment rates ex-
20 Audit Activities - March 2008
                                              audit activities
                 Universal Service Fund (USF) oversight


erroneous payments of $75.5 million); Schools and     performed by 12 public accounting firms under

Libraries, a 12.9% error rate (estimated erroneous    contract with USAC and under the guidance of

payments of $210 million); High Cost Fund,            the OIG. For this round of audits, the Inspector

a16.6% error rate (estimated erroneous payments       General directed USAC to provide more specific

of $618 million); Rural Health Care, a 20.6% error    auditor training as well as additional training on

rate (estimated erroneous payments of $4.4 mil-       detecting fraud, waste and abuse. These audits

lion); and USF contributors, a 5.5% error rate        began in January, 2008 and fieldwork is expected

(estimated erroneous contributions of $385 mil-       to be completed in June, 2008. To date, OIG staff

lion). Under the Improper Payments Information        has visited 16 Schools and Libraries’ audit field

Act (“IPIA”), a program is at risk if the erroneous   sites and 19 High Cost’s audit field sites in an ef-

payment rate exceeds 2.5% and the total amount        fort to fulfill its oversight responsibilities.

of erroneous payment is greater than $10 million.

Under these criteria, the High Cost Program, the      OIG also initiated action to assess the Low Cost

Schools and Libraries Program, and the Low In-        Program error rates during 2008 to address IPIA

come Program were found to be at risk.                reporting standards. A statistical analysis was

                                                      prepared by the OIG to determine the number of

Due to the Schools and Libraries and High Cost        audits needed for a statistically valid IPIA assess-

Programs exceeding the IPIA threshold and the         ment. A request for procurement was prepared to

potential amount of improper payments that            contract for the services of auditing firms to per-

were estimated, another statistical sample of the     form these audits. These audits are expected to

USF participants was required. Using stratified       begin during June 2008.

sampling, the erroneous payment rates from the

first round of audits, and the formula specified by   We expect that the statistical analyses resulting

the IPIA resulted in samples of 260 Schools and       from these audits will improve the application of

Libraries audits and 390 High Cost audits for the     investigative and audit resources and yield infor-

second round of audits. These audits are being        mation that will enable the Commission to im-


                                                                         Audit Activities - March 2008   21
              audit activities
                     Universal Service Fund (USF) oversight


prove the administration of these programs to        The Antitrust Division, in turn, has established

further reduce fraud, waste and abuse in addition    a task force to conduct USF investigations that is

to deterring fraud, waste and abuse in those pro-    comprised of attorneys in each of the Antitrust

grams.                                               Division’s seven field offices and the National

                                                     Criminal Office. As of the end of this reporting

          Support to Investigations                  period, we are directly supporting 30 investiga-

                                                     tions and monitoring an additional 6 investiga-

In addition to the audit component of our over-      tions. Recent assessments, resulting from ad-

sight program, we have provided, and continue to     ditional USF audits, suggest that the volume of

provide, investigative and audit support to United   work in this area will intensify over time. As

States Department of Justice investigations of E-    noted in the Management Activities section of

rate and High Cost fund recipients. To implement     this report, we are in the process of increasing

the investigative component of this effort, we de-   staffing resources to address these USF challeng-

veloped a working relationship with the Antitrust    es. Please refer to the Investigations section of

Division of the Department of Justice (“DOJ”).       this report for further information.




22   Audit Activities - March 2008
audit activities




         Audit Activities - March 2008   23
Did you
know?
 TheFCC Consumer
 Call Center handled
 128,000 calls in FY
  2007.
Investigations

 ACTIVITY DURING THIS PERIOD

significant INVESTIGATIVE CASE
          SUMMARIES

         OIG HOTLINE
              investigations
     Investigations are initiated as a result of alle-   and its regulatees. Investigative findings may

     gations from a variety of sources. Examples         lead to criminal or civil prosecution, or admin-

     include FCC managers and employees who              istrative action, or all of the foregoing.

     contact the OIG directly, complaints provided       The OIG also receives complaints from the gen-

     through the OIG hotline, and complaints re-         eral public and Commission employees about

     ceived through the U.S. Postal Service. Allega-     the manner in which the FCC executes its pro-

     tions can be, and frequently are, made anony-       grams, how the FCC handles its operations ad-

     mously. Investigations may also be predicated       ministratively, and how the FCC conducts its

     on audit or inspection findings of fraud, waste,    oversight responsibilities. All complaints are

     abuse, corruption, or mismanagement in FCC          examined to determine whether a reasonable

     programs or operational segments, by FCC            basis exists for initiating an audit, inspection or

     employees, contractors, and/or subcontractors,      investigation. If the allegations are not within

     and through referrals from other governmental       the jurisdiction of the Inspector General, the

     agencies.                                           complaint, is referred to the appropriate FCC

                                                         bureau or office or other federal government

     The OIG works directly with federal criminal        entity for response directly to the complainant.

     authorities, either in supporting their investi-    The OIG usually continues to serve as a facilita-

     gations or in having those authorities support      tor with respect to responses to complaints that

     this office with resources not available within     are outside the jurisdiction of this office. Fi-

     the FCC. Upon receiving an allegation of an         nally, matters may be referred to this office for

     administrative, civil, or criminal violation, the   investigative action from other governmental

     OIG conducts a preliminary inquiry to deter-        entities, such as the Government Accountabil-

     mine if an investigation, audit or inspection is    ity Office, the Office of Special Counsel, and

     warranted. Investigations may involve viola-        various congressional and senatorial offices.

     tions of federal regulations concerning employ-

     ee responsibilities and conduct, federal criminal   As discussed in previous semiannual reports,

     or civil law, and other regulations and statutes    this office continues to initiate, and participate

     pertaining to the activities of the Commission      in, complex cyber crime investigations. These

26   Investigations - March 2008
                                                 investigations
investigations have required substantially more       ownership.    This was the largest investigation

investigative resources because of the complex        ever conducted by the OIG. The second sum-

nature of the investigations, the need for higher-    mary addresses the largest E-Rate trial to date,

grade forensic tools, and the need for personnel      resulting in the conviction and sentencing of Judy

with the concomitant expertise to use those tools.    Green, a former sales representative and school

This office also handles an increasing number         consultant, for her role in schemes to defraud the

of investigations resulting from the significant      federal E-Rate program.

growth in USF audits.

                                                               Activity During This Period
In addition to the foregoing, the OIG continues to

coordinate and provide assistance to federal civil    At the outset of this reporting period, sixty-sev-

and criminal enforcement authorities, as well as      en (67) cases were pending. Thirty-three (33) of

to state and local authorities, with respect to in-   those cases involve the Commission’s Universal

vestigations pertaining to fraud on the Commis-       Service Fund (USF) program and have been re-

sion’s Universal Service Fund program as well as      ferred to the U.S. Department of Justice, or its in-

other types of fraud perpetrated upon the federal     vestigative branch, the Federal Bureau of Investi-

government. These efforts have led to successful      gation (FBI) . An additional twelve (12) non-USF

indictments and prosecutions for criminal con-        and five (5) USF related complaints were received

duct pertaining to the USF Fund.                      during the current reporting period. Over the last

                                                      six months, four (4) cases, two (2) USF and two

In this semi-annual report, we describe in detail     (2) non-USF related, have been closed. As a con-

two significant investigations that were complet-     sequence, a total of eighty (80) cases are pending,

ed during the period covered by this report. The      of which thirty-six (36) relate to the USF program.

first summary covers an investigation regarding       The OIG continues to monitor, coordinate and/or

allegations of inappropriate conduct by individu-     support activities regarding those thirty-six (36)

als at the FCC, past and present, concerning the      investigations. The investigations pertaining to

possible destruction and/or suppression of draft      the pending forty-four (44) non-USF cases are on-

studies or reports regarding localism and media       going.

                                                                         Investigations - March 2008   27
              investigations
                                                      Chairman’s Chief of Staff, staff from the offices of
                     Statistics
                                                      current Commissioners, and former media advi-
      Cases Pending as of
                                           67
      October 1, 2007                                 sors to Commissioners Adelstein and Copps.
      New Cases                            17

      Cases Closed                         4          The investigation began in mid-September 2006,
      Cases Pending as of March 31,                   when FCC Chairman Kevin Martin first became
                                           80
      2008
                                                      aware that two draft Media Bureau economic

        Significant Case Summaries                    research reports were alleged to have been sup-

                                                      pressed at the agency and asked the Commission’s

Report of investigation alleging destruction or       Inspector General to investigate the matter. De-

        suppression of draft FCC reports              cisions concerning these two reports would have

                                                      occurred during the tenure of former Chairman

During this reporting period, the OIG closed the      Michael Powell. Shortly thereafter, on September

largest and most publicized investigation under-      20, 2006, Senators Boxer, Dorgan and Wyden sent

taken by the FCC OIG, issuing a report of inves-      a letter to the Inspector General requesting an

tigation on October 4, 2007, shortly after the last   investigation of these allegations and additional

reporting period. More than 150,000 pages of          related matters, including allegations that “senior

documentation were reviewed and over one tera-        managers ordered ‘every last piece’ of [a draft

byte of electronic data was searched in this inves-   Media Bureau] report destroyed.” In light of the

tigation. In addition, dozens of related Commis-      allegations, the Inspector General expanded the

sion reports and orders were reviewed, and the        investigation to include a determination as to

OIG’s Senior Forensic Economist reviewed and          whether there had been any violations of United

analyzed more than 60 economic and research           States criminal law or the Commission’s rules.

documents, including reports, papers, articles,

and surveys. In addition, 35 individuals were in-     The Senators’ and Chairman’s concern regarding

terviewed, including present and former staff and     the draft report entitled “Do Local Owners De-

management, economists and lawyers, among             liver More Localism? Some Evidence from Lo-

them a former Media Bureau Chief, the current         cal Broadcast News” (“Local TV News Report”)

28   Investigations - March 2008
                                                    investigations
stems from the allegations of now-Associate Pro-         alleged in the media that their former supervisors

fessor Adam Candeub of Michigan State Uni-               had committed what amounted to criminal acts

versity College of Law, who was employed as a            by ordering reports and data destroyed – and

staff attorney in the Commission’s Media Bureau          implicitly alleged that their own lower level staff

during part of the relevant period. As stated in         colleagues had also committed these same crimi-

the Senators’ letter, Mr. Candeub’s allegations are      nal acts in following those orders - declined all

that “the report ‘was stopped in its tracks because      repeated OIG requests to be interviewed in the ef-

it was not the way the agency wanted to go’ and          fort to investigate the basis for their very serious

that senior managers ordered ‘every last piece’ of       allegations.

the report destroyed.”1

                                                         OIG staff began trying to arrange for an interview

Mr. Candeub made similar allegations in many             with Associate Professor Candeub almost imme-

media interviews and the allegations were re-            diately upon starting the investigation in Septem-

peated in various media articles and reports.2 A         ber 2006.      Mr. Candeub initially stated on sev-

former colleague of Mr. Candeub, who had been            eral occasions to the Assistant Inspector General

an economist in the Media Bureau and is co-au-           for Investigations (“AIGI”) that he was willing to

thor with Mr. Candeub of several articles, Keith         be interviewed but, after learning the interview

Brown, also made similar allegations to the me-          would be under oath and transcribed by a court

dia. These two former FCC staff employees, who           reporter, failed to respond to numerous voice and

                                                         e-mails from the AIGI and his staff requesting that
1	       See letter to Kent R. Nilsson, Inspector Gen-
eral, from Senators Barbara Boxer, Byron Dorgan and      Mr. Candeub name a date for the interview. Mr.
Ron Wyden, dated September 20, 2006, p.1.
2	       “‘[They said that the project was dead and to   Candeub stated some of his failures to respond
delete computer records,’ [Professor Candeub] told
                                                         were due to failures of the Michigan State Univer-
TelevisionWeek.” TVWeek, September 14, 2006.
“[Professor Candeub] said ‘the order did come down       sity voicemail system, some to his busy teaching
from somewhere in the senior management of the me-
dia bureau [sic]that this study had to end … and they    schedule; later he stated he needed time to consult
wanted all the copies collected.’” Los Angeles Times,
                                                         with counsel and prepare to be interviewed on
September 15, 2006. “Candeub, now a law professor
at Michigan State University, said senior managers at    the subject of the allegations he made in multiple
the agency ordered that the report be destroyed.” As-
sociated Press, September 15, 2006.                      media interviews. OIG staff continued to make

                                                                              Investigations - March 2008   29
              investigations
attempts to contact Mr. Candeub and arrange for       FCC staff with whom he had worked and been

a convenient interview time. This included hav-       supervised. As discussed in more detail in the

ing OIG staff research his teaching schedule at       report, the extent and thoroughness of the OIG

Michigan State University College of Law in De-       investigation on these matters, and the lack of

troit to try to determine convenient dates for Mr.    evidence corroborating Associate Professor Can-

Candeub, and repeatedly reminding Mr. Can-            deub’s allegations give us comfort that we have

deub that OIG staff and the court reporter would      been able to investigate these matters thoroughly

arrange essentially to be in any place at any time    and that our findings and conclusions, that there

convenient for Associate Professor Candeub. On        was no merit to Associate Professor Candeub’s al-

November 1, 2006, Mr. Candeub stated in a voice-      legations, rest on solid grounds.

mail to OIG staff that he had decided he would

decline to be interviewed for the investigation       We similarly repeatedly sought to interview Mr.

because he “[did] not think [he] could add much       Brown, the economist colleague and co-author

to the issues [he] believe[d] the investigation was   with Mr. Candeub, who made allegations in the

required to pursue” – an investigation into the al-   press similar to Mr. Candeub of what amounted

legations Mr. Candeub repeatedly made in public       to criminal misconduct by former colleagues and

but now would not discuss with the federal in-        supervisors. Mr. Brown also refused to be inter-

vestigators seeking to substantiate Mr. Candeub’s     viewed by OIG in the investigation. OIG staff

claims of potentially criminal acts and miscon-       contacted Mr. Brown more than eight times. One

duct by his former government colleagues and          investigator spoke directly to Mr. Brown on the

supervisors with whom he had clashed on many          telephone four times; throughout the process the

occasions.                                            investigator left multiple unreturned voicemails.

                                                      The AIGI tried to assist and left Mr. Brown three

The Inspector General cannot compel testimony         voicemails that also were not returned. Mr. Brown

of non-government employees and at first OIG          stated that he did not trust “the IG process.” To

was concerned that its inability to interview Mr.     assuage his concern, the investigator noted that

Candeub would limit its ability to completely in-     the OIG had contracted with a court reporting

vestigate his allegations of criminal behavior by     service and would have this independent entity

30   Investigations - March 2008
                                                    investigations
record the interview and produce a written          ers, former Chairman Powell or Chairman Powell’s

transcript which he could review for accuracy.      former staffers because the investigators found no

Mr. Brown replied that his concerns were in-        leads, much less evidence, suggesting that any of

creased with having an actual transcript of his     these individuals were involved in the matters be-

interview. When the OIG then offered to have a      ing investigated or might have information relevant

more informal interview recorded only on tape       to this investigation. Thus, we did not have any rea-

and without a formal transcript, Mr. Brown still    soned, good-faith basis on which to ask these per-

expressed doubt that he would agree to be in-       sons to undertake the burdens of time, energy, and

terviewed. Finally, Mr. Brown told the investi-     perhaps expense required by being interviewed in

gator that he would not agree to be interviewed     an OIG investigation. The Inspector General spe-

at all. As noted above, and discussed in the re-    cifically questioned the investigators on why they

port, we became comfortable that we had been        decided not to interview former Chairman Powell

able to investigate these matters adequately,       or his staff despite expecting to do so in the early

and that our findings and conclusions rest on       stages of the investigation. The investigators then

solid grounds, despite the repeated refusals of     noted the information above and their view that,

Mr. Candeub and Mr. Brown to be interviewed         even if OIG had the authority to compel testimony,

regarding their knowledge of the criminal acts      such potential interviewees could have likely got-

and misconduct in which they alleged their for-     ten a court to quash any subpoena based on the fact

mer supervisors and colleagues engaged.             that staff could not articulate any good-faith basis

                                                    on which to request such interviews. Although OIG

We have been criticized, most prominently by        did not necessarily anticipate resistance to being in-

Senator Barbara Boxer and FCC Commissioner          terviewed on the part of these individuals, the lack

Michael Copps, for not interviewing sufficient      of investigative support for seeking their testimony

“high-level” persons, including criticism of the    decided the matter.

facts that we did not interview each sitting Com-

missioner and their staffs or former Chairman       In the investigation, OIG personnel interviewed the

Michael Powell and his former staff members.        current Chairman’s Chief of Staff, staff from the of-

We did not interview the sitting Commission-        fices of current Commissioners, and former advi-

                                                                          Investigations - March 2008   31
                 investigations
sors to Commissioners Adelstein and Copps (who       and to have done so would have been to abuse the

were employed by the Commission at the time of       powers of the office for the sole purpose of shield-

the alleged acts) and specifically asked each one    ing the OIG from potential criticism.

to identify other persons, within or outside the

FCC, that OIG might want to interview to gain        As discussed in the report, despite its extensive

information, even to the level of mere leads and     scope, OIG’s investigation did not substantiate the

hearsay, not evidence, which greatly expanded        serious allegations leveled by Mr. Candeub and

the universe of potential OIG deponents. None        Mr. Brown. As a preliminary and factual matter,

of these, including the advisors to Commissioners    every piece of the Local TV News Report was not

Copps and Adelstein, suggested OIG staff should      destroyed. Multiple copies of multiple versions of

interview either the Commissioner for whom the       the report were produced immediately, both in our

advisor served or any other Commissioner. In         investigation and pursuant to a Freedom of Infor-

addition, Commissioner Copps’ office requested       mation Act request for which it was a responsive

and received a briefing on the report immediately    document. Pursuant to the investigation, OIG in-

prior to its issuance. At that briefing, Commis-     terviewed, among others, Mr. Brown’s co-author

sioner Copps’ staff did not indicate that the Com-   of the Local TV News Report, Commission staff

missioner or his staff had any relevant informa-     and management known to have copies of the re-

tion that had not been provided to the OIG and       port, the former Chief, Deputy Bureau Chief, and

would be necessary for a full understanding of       other members of the Media Bureau’s front office

the situation.                                       at the time in question. Every person, including

                                                     Mr. Brown’s co-author of the report, stated that he

In retrospect, requiring the sitting Commissioners   or she had neither received nor given an order to

to submit to interviews and requesting that for-     destroy the Local TV News Report or any other

mer Chairman Powell and some of his staff agree      document.

to be interviewed might have prevented certain

criticisms of this investigation. We remain con-     Because of the seriousness of the allegations, we

vinced, however, that the OIG did not have a basis   asked every person interviewed in the investiga-

on which to demand or request such interviews        tion, even those who were not involved with the

32   Investigations - March 2008
                                                 investigations
Local TV News Report, whether they had ever giv-       Subsequent to our investigation and the brief-

en or received an order to destroy any document        ing to his office, Commissioner Copps criticized

outside of the agency’s standard record retention      the OIG in the press for not explaining “why

and destruction policy directions or if they had       a study that reached striking and exceedingly

ever heard even a rumor of such. With the excep-       relevant conclusions wasn’t finalized and made

tion of Mr. Candeub’s allegations, which some in-      a part of the record, even though supervising

terviewees remembered reading or hearing about         economists concluded that the technical flaws

in media reports, no one we interviewed was aware      could be easily fixed.” The striking nature of

of even a rumor of such conduct at the Commis-         those conclusions was one of the flaws found by

sion. The evidence supported only one conclusion:      the reviewing economists. The striking conclu-

that the allegations leveled by the two accusers       sions claimed were not found to be supported

were false and that no order to destroy the Local      by the research data by the reviewing econo-

TV News Report was given by senior managers or         mists at the time, or on later review by OIG’s

anyone else at the Commission.                         Senior Forensic Economist in our investigation.

                                                       The reviewing economists and OIG’s Senior

Mr. Candeub and Mr. Brown also alleged that the        Forensic Economist’s professional views were

Local TV News Report was suppressed because se-        that only more modest conclusions could be

nior agency management disliked the factual find-      supported by the data, and the report required

ings of the report. As discussed in more detail in     greater detailing of the limitations of the data.

our report, the weight of the evidence indicated the

most probable explanation was that the report was      The reviewing economists appeared to have

not released because the senior economists respon-     thought revisions could eventually result in a

sible for reviewing and approving the report did       professional paper of some use, again a view

not determine that, despite its flaws, it had been     shared by the OIG Senior Forensic Economist,

revised sufficiently to be considered for public re-   but the two staff authors were not willing to

lease without further correction, and not because of   make all required changes.       The study was

agency management’s like or dislike of its results.    based on an independent view of those two staff

                                                       economists and was not a project directed or

                                                                        Investigations - March 2008    33
              investigations
required by FCC Media Bureau management.
                                                   a Media Bureau draft report entitled “Review of
The reviewing economists and managers did
                                                   the Radio Industry, 2003” (“Draft 2003 Radio Re-
not view the potential of a revised paper to be
                                                   port”). This matter was in some ways simpler than
so useful or necessary that management should
                                                   the question of the Local TV News Report and in
insist the work be taken over by other staff
                                                   some ways presents more troubling aspects. There
economists and the intellectual property rights
                                                   is no dispute that a fairly complete draft was pre-
issues pursued to produce a published paper.
                                                   pared by Media Bureau staff and presented to its
OIG’s Senior Forensic Economist found that to
                                                   front office. There is also no dispute that the then-
be a reasonable conclusion.
                                                   Media Bureau Chief decided the report would not

                                                   be revised into a final version to be submitted to
Based on the information gathered in our inves-
                                                   Chairman Powell’s office for expected release, and
tigation, and on the OIG’s Senior Forensic Econ-
                                                   that the Media Bureau would not work on another
omist’s analysis of the various versions of the
                                                   update of the report in the immediate future, at
Local TV News Report and its criticisms, OIG
                                                   least not until media ownership issues were before
believes that the reviewing economists’ con-
                                                   the Commission again.3 OIG notes, however, that
cerns with quality of the draft Local TV News
                                                   a decision not to release a document does not by it-
Report were sincerely held, rationally based,
                                                   self establish that the document was “suppressed.”
and not pretexts to suppress it. OIG suspects
                                                   Decisions to revise, change, release, or not release
that the tensions between staff and manage-
                                                   documents are common and expected in govern-
ment, and between and among staff and senior
                                                   ment agencies and the role of agency management
economists, may have exacerbated a difficult
                                                   includes making such decisions. Although agency
situation, but that this tension was not caused
                                                   management (and staff) cannot conceal documents
by or related to any effort to suppress the Lo-

cal TV News Report because of agency manage-       3	      The expectation at that time would have been
                                                   the next quadrennial regulatory review proceeding in
ment dislike of the results.                       which media ownership rules would be addressed. Pre-
                                                   viously the Commission had reviewed these matters on
                                                   a biennial basis, but in January 2004, Congress amend-
The investigation also addressed questions that    ed section 202(h) of the Telecommunications Act of
                                                   1996 to provide for a quadrennial rather than a biennial
had arisen regarding the decision not to release   review. Appropriations Act 2004, Pub. L. No. 108-199,
                                                   Div. B, § 629, 118 Stat. 3, 99 (2004).

34   Investigations - March 2008
                                                  investigations
or information, there can be valid reasons for de-      The Draft 2003 Radio Report was presented

cisions not to release a document or information        to the Media Bureau front office for review in

even when the information is not privileged or oth-     late December 2003. Minor criticisms from a

erwise to be protected from disclosure. We look to      reviewer in the Media Bureau front office were

the context of the decision-making and the reasons,     received. Some changes could have been ad-

expressed and observed, for the decision not to re-     dressed through minor edits and some ap-

lease to determine whether the decision and related     peared to be the result of unfamiliarity with the

actions were reasonable and consistent with agen-       series of reports and could have been addressed

cy management’s obligations to the agency and the       through discussion. OIG has also been criti-

citizens it serves, or whether the decision was arbi-   cized because it did not interview that reviewer,

trary and capricious or, in the worst case, an act to   who had retired from the FCC shortly after the

conceal information.                                    investigation started and who indicated he was

                                                        willing ,if not eager, to be interviewed in his re-

OIG determined that there also appeared to be no        tirement. Further investigation revealed that

dispute that the economic work product in the Draft     these criticisms played no role in the decision

2003 Radio Report was competent and did not raise       at issue and thus the OIG did not seek such an

the types of issues seen with the Local TV News         interview. Revisions based on that reviewer’s

Report. The Draft 2003 Radio Report followed the        concerns were not made or addressed with him

pattern set by the prior three released reports and     because the Media Bureau Chief decided the re-

used standard economic methodologies and pub-           port should not go further towards release. In

licly available data, as had the prior reports. The     an electronic mail message, the then-Chief stat-

results of the Draft 2003 Radio Report also appear      ed that he:

to be expected and uncontroversial: the pattern of

consolidation in radio ownership since the Telecom-        [was] not inclined to release this one un-

munications Act of 1996 was continuing, although           less the story can be told in a much more

with the same minor flattening effect seen in past         positive way. This is not the time to be

reports.                                                   stirring the “radio consolidation” pot. …

                                                           [Given that the reports in the series had

                                                                         Investigations - March 2008    35
                investigations
     been issued at uneven intervals in the         Media Bureau Chief was not improper. Senator

     past] It would hardly seem odd if we did       Boxer has argued that we did not address whether

     not release one this year … particularly       the decision was based solely on political reasons,

     given that we just did a big radio order       rather than whether it simply violated a law. In

     as part of the biennial … All in all this is   fact, as detailed in our report and briefly discussed

     a really bad time to release something         here, we did so. We found the then-Bureau Chief

     like this. If we can change the focus and      considered reasonable factors, including agency ef-

     make it more positive … then perhaps we        ficiency, as well as framing and timing the address-

     can do something like this again, but this     ing of policy issues not specifically before the Com-

     will take more than just regurgitating last    mission (which we agree is of a political nature).

     year’s report with new numbers.                We also noted that there are certain factors relating

                                                    to government work product that could have been

Based on the evidence collected in the investiga-   more carefully weighed, such as the Senators’ con-

tion, OIG believes the decision not to go forward   cern that work done at taxpayer expense was not

with the release process for the Draft 2003 Radio   made directly available to the public. We did and

Report was not an attempt to conceal informa-       could not conclude, however, that additional con-

tion. The record supports the OIG’s view that       sideration of such factors would require a different

the decision was a reasoned decision based on       decision, and did and could not conclude that the

valid agency management considerations, con-        decision was therefore improper.

sistent with expressed and observed directions

of the Media Bureau Chief on similar matters.       As discussed in our report, it was the aftermath of

                                                    the decision not to move the Draft 2003 Radio Re-

The OIG acknowledges that this is an area on        port to release that presented more troubling issues.

which reasonable minds could differ and a dif-      Media Bureau staff had noted to the Bureau Chief

ferent FCC manager could have made a legiti-        that the report had been released on a repeated, if

mate decision to continue the release process       irregular, basis, and that there were often sporadic

for the Draft 2003 Radio Report. This does not      requests for it or inquiries as to when a new version

affect our view that the actual decision of the     would be released. It is clear that the then-Bureau

36    Investigations - March 2008
                                                   investigations
Chief directed that responses to inquires for future     We were, and are, troubled by the possibility

versions would be that the Media Bureau did not          that there could have been, at the very least, an

have time and resources to produce annual updat-         effort to distract attention from asking for the

ing of the report. It is more unclear as to the direc-   Draft 2003 Radio Report and, at the worst, an

tions regarding responses to inquiries that would        attempt to conceal the existence of the draft

implicate the unreleased Draft 2003 Radio Report.        report. The evidence in this matter, however,

                                                         is sometimes contradictory, often ambiguous,

Several members of the Media Bureau did not re-          and generally rests on recollections far after the

member receiving any instructions on responding          events in question. We did and do not believe

to inquires on the Draft 2003 Radio Report. One of       that the evidence is strong enough to establish

these individuals responded to an inquiry about a        with reasonable certainty that any improper or

2003 version from within the Media Bureau itself         illegal acts to conceal the Draft 2003 Radio Re-

that “[w]e didn’t do one in 2003” and went on to         port took place, and therefore we could not in

identify the most recent released reports and of-        good faith refer this matter to another authority

fered to arrange for copies of such. Another remem-      for prosecution. Although purely speculative,

bered receiving a direct inquiry for the 2003 report     were the then-Media Bureau Chief still in place,

from a Commissioner’s office and responding that         OIG very likely would have referred the mat-

there had been a decision not to release the draft.      ter to Chairman Powell for administrative con-

One member of the Media Bureau remembers hav-            sideration to address, at a minimum, preven-

ing been told that the Bureau Chief directed that        tive measures to insure clarity in the future for

they say the Bureau did not have the time to do a        similar situations where requests are made for

2003 report because of the press of other work; that     unreleased reports and what responses should

person thought thus the instruction basically was        or can be given. Because different management

to lie, but did not have any recollection of receiving   was in place and OIG did not receive reports of

or responding to any inquiries. The Media Bureau         similar situations during the extensive investi-

Chief did not remember giving out directions on          gation, it was not necessary to refer this matter.

responding to inquiries for the 2003 version or hav-

ing any conversation about the topic at all.             The Senators also asked us to determine if there

                                                                          Investigations - March 2008   37
              investigations
were any similar materials related to media          the public. Although, the project clearly seems not

ownership or localism that was not released to       to have moved smoothly or quickly to its end, we

the public and, if so, to examine the surrounding    found no evidence of suppression and the evidence

circumstances. The Senators were concerned           we did find indicates that Commission personnel

specifically with the long delay with several        worked diligently and in good faith to address

contract-based research projects entered into for    and resolve problems within a difficult situation.

the FCC’s Localism Task Force (“LTF”) which          Similarly, we did not find anything that appears to

had not then resulted in publicly released mate-     have been intentional efforts to delay or suppress

rial. The implicit suspicion was that the delays     any of the additional projects in order to prevent

might be intentional efforts to conceal the rele-    disfavored results from being released. We note

vant material from the public because it is disfa-   that contractual and quality issues with respect to

vored by agency management. As noted above,          the project were ultimately resolved in late August

we conducted an extensive and wide-ranging           2007 with the FCC receiving a reduction in the con-

investigation including interviews and docu-         tract price. It should be noted that project material

ment review relating to this issue. We found no      was utilized in other media research and a database

evidence that the delays with respect to these       containing that material was released to the public

contract-based research projects were intention-     with the related research papers on July 31, 2007.

al efforts to delay the public release of informa-

tion. We also found no evidence that additional      The Senators also asked us to examine whether it

materials that were not released to the public       is or has been “the practice of any commission or

were withheld based on improper motives.             senior FCC management to suppress facts, analy-

                                                     sis, or other materials that is contrary to a result

OIG found the major contract-based LTF re-           desired by that person.” In order to address this

search project had not had an efficiently man-       very broad question, we asked every person we in-

aged history, but we did not find any evidence       terviewed on the specific matters described above,

that the delays were due to intentional efforts to   including those connected with FCC Commission-

delay or sabotage the project, or prevent the fi-    ers, if they knew of any other matters similar to the

nal unique database from becoming available to       one(s) we discussed or if they knew of any situation

38   Investigations - March 2008
                                                   investigations
which they thought might have involved suppres-           The Inspector General directed and supported

sion of reports, facts, analysis, or other material. To   the largest investigation ever undertaken by the

expand this scope as far as possible, we asked the        FCC’s OIG in this matter. As noted above, more

witnesses to answer as broadly as they could, pro-        than 150,000 pages of documentation were re-

viding us even with rumor and hearsay and telling         viewed, over one terabyte of electronic data was

us about any situation which might possibly have          searched, and 35 individuals were interviewed,

been related to a suppression scenario, whether           including the current Chairman’s Chief of Staff

current or in the past. Our investigation into the        and former legal advisors to Commissioners

above matters led us to economists and researchers,       Adelstein and Copps. Because of the impor-

staff and management, current and former, in the          tance of the issues in this investigation, the OIG

Media Bureau and elsewhere in the Commission.             report extensively detailed the facts found and

In addition, in an effort to ensure we did not miss       OIG’s conclusions in its report of investigation,

leads from other parts of the Commission, we spe-         including discussing differing possible interpre-

cifically interviewed at least one researcher in each     tations of evidence in explaining OIG’s views on

bureau and office that was not represented in our         such. This most extensive and most publicized

investigations into the above matters, and followed       OIG investigation and the OIG conclusions

up on all leads provided to us. In the investigation      have received both praise and criticism in the

and as discussed in more detail in the report, we         press and in the community. Specifically, Sena-

followed up on various leads to situations involv-        tor Boxer has stated her view that our report

ing possible suppression. OIG found no evidence           was merely a cover-up, Commissioner Copps

of a pattern or practice of any commissioner or           has stated in the press that he thinks we did not

anyone in the Commission’s senior management to           interview the right people or uncover the whole

suppress reports, facts, analysis, or any other mate-     story, and Commissioner Adelstein has stated

rial because it was contrary to a result desired by       that he does not think our conclusions match

that person. OIG investigated the leads relating to       the evidence we detailed in the report.

possible suppressions of reports, facts, analysis or

other material and again did not find evidence of         In the end, however, it is to the evidence col-

such suppression.                                         lected that the OIG looks to resolve investiga-

                                                                           Investigations - March 2008   39
              investigations
tions, and to the investigative techniques used       sentenced in U.S. District Court for the Northern

to ferret out the truth. Serious allegations of       District of California in San Francisco after a jury

misconduct were leveled by parties unwilling          found her guilty on 22 counts of fraud, bid rigging,

to support the investigation they, in large part,     and conspiracy to commit wire fraud at schools in

initiated. In spite of same, this office rigorously   seven states.

investigated the matters to determine the truth

without their support, deposing a multitude of        At its inception the E-Rate program was intended to

people these parties worked with and for, only        provide discounts to assist most schools and librar-

to discover that the allegations were just that       ies in the United States obtain affordable telecom-

and had little to no evidentiary support. Their       munications and information services. Discounts

most vehement allegations of orders to destroy        range from 20% to 90% of the costs of eligible ser-

documents were not supported by anyone: not           vices, depending on a determination of poverty

one of the dozens of individuals interviewed          levels and the urban/rural status in the areas served

in this investigation. OIG acknowledges, as al-       by the schools and libraries.

ways, that different minds may come to different

conclusions, but the Inspector General remains        Ms. Green became acquainted with the E-Rate pro-

satisfied with, and proud of, the integrity and       gram as an employee with the Los Angeles Unified

thoroughness of the investigation, the transpar-      School District in the fall of 1999. She leveraged

ency of the related report of the investigation,      her Los Angeles experience into being a consultant

and the reasoned conclusions of the report and        to school districts. As a consultant she would per-

his staff.                                            suade her clients to apply for E-Rate funding, guide

                                                      them through the process, and submit or help the

             Judy Green E-rate Case                   school districts submit their E-Rate documents. Ms.

                                                      Green preyed on schools at the 90% level (in poorer

Judy Green, a former education consultant from        areas of Arkansas, California, Michigan, New York,

California, was sentenced on March 19, 2008 to        Pennsylvania, South Carolina, and Wisconsin) be-

serve 7 ½ years in prison for bid rigging and         cause it was easier to inflate costs to cover the lo-

defrauding the USF E-Rate program. She was            cal match required by the FCC of 10%. Ms. Green

40   Investigations - March 2008
                                                   investigations
was aware that the 90% schools almost always got         Ms. Green also rigged the bids on these projects

funded for internal connections. Her scheme did          in favor of vendors who had business relation-

not involve schools with a discount lower than           ships with her. She communicated with ven-

90% because they were not likely to get funding          dors when to bid or not bid, and who should

for internal connections which, in turn, meant Ms.       be awarded a prime contractor or subcontrac-

Green could not make any money pursuant to her           tor role. The vendors followed these arrange-

scheme. During this time period, she also worked         ments. To accomplish this scheme, a sham bid-

in a different and contradictory role by acting as       ding process was conducted so that vendors

a sales representative for an E-Rate vendor where        were wrongfully selected on the basis of their

she marketed products to educational institutions,       relationship with Ms. Green. She would direct

including school districts. In her dual role as con-     E-Rate projects to vendors in return for five to

sultant/sales representative, she implemented wire       ten percent of any E-Rate funding the vendor

fraud schemes designed to inflate the cost of eligi-     received.

ble equipment and services in order to pay for in-

eligible equipment and services. A critical aspect       The FCC OIG was the first organization to in-

of the scheme was to make the E-Rate program             vestigate Ms. Green, opening an investigation

believe the school districts would pay their local       in the later part of 2001. Eventually this office

match (10%). Ms. Green invented various methods,         played a substantial role in the joint investiga-

including bogus donations from non-profit organi-        tion that was conducted by the U.S. Department

zations, to hide the fact that the co-pay was actually   of Justice Antitrust Division and numerous of-

being paid by E-Rate funds.                              fices within the Federal Bureau of Investiga-

                                                         tion.




                                                                          Investigations - March 2008   41
              investigations
                 OIG Hotline


During this reporting period, the OIG Hotline          or state governments. Examples of calls referred to

technician received numerous calls to our pub-         the Consumer Center or other FCC offices include

lished hotline numbers of (202) 418-0473 and           complaints pertaining to customers’ phone service

1-888-863-2244 (toll free). The OIG Hotline con-       and local cable providers, long-distance carrier

tinues to be a vehicle by which Commission             slamming, interference, or similar matters within

employees and parties external to the FCC can          the program responsibility of other FCC bureaus

contact the OIG to speak with a trained Hotline        and offices.

technician. Callers who have general questions

or concerns not specifically related to the mis-       During this reporting period, we received 605

sions or functions of the OIG office are referred      Hotline calls, which resulted in OIG taking action

to the FCC Consumer Center at 1-888-225-5322.          on seven of these calls and 72 calls awaiting dispo-

                                                       sition. The remaining calls were forwarded to the

In addition, the OIG also refers calls that do not     FCC Consumer Center (259 calls) and other federal

fall within its jurisdiction to other entities, such   agencies, primarily the Federal Trade Commission

as other FCC offices, federal agencies and local       (267 calls).




42   Investigations - March 2008
                                 investigations




                     OIG Hotline Calls Record
                   October 1, 2007 - March 31, 2008


FCC OIG
  (7)           Awaiting
               Disposition
                  (72)       FCC Consumer
                              Center (259)

          Other Federal
          Agencies (267)

                                                      FCC Consumer Center
                                                      Other Federal Agencies
                                                      FCC OIG
                                                      Aw aiting Disposition




                                                 Investigations - March 2008   43
  reporting requirements of the
      inspector general act

     Reporting Requirements
         of Section 5(a)

     table i: oig reports with
        questioned costs

    table II: oig reports with
recommendations that funds be put
          to better use
              reporting requirements
 The following summarizes the Office of Inspector General response to the 12 specific reporting require-
 ments set forth in Section 5(a) of the Inspector General Act of 1978, as amended.

 1. A description of significant problems, abuses, and deficiencies relating to the administration of programs
 and operations of such establishment disclosed by such activities during the reporting period.

 Please refer to the section of this report titled “Universal Service Fund” and the section of this report cap-
 tioned “Telecommunications Relay Service.”

 2. A description of the recommendations for corrective action made by the Office during the reporting pe-
 riod with respect to significant problems, abused, or deficiencies identified pursuant to paragraph (1).

 Please refer to the section of this report titled “Universal Service Fund” section of this report captioned
 “Telecommunications Relay Service.”
 3. An identification of each significant recommendation described in previous semiannual reports on which
 corrective action has not yet been completed.

 No significant recommendations remain outstanding.

 4. A summary of matters referred to authorities, and the prosecutions and convictions which have resulted.

 We referred a time and attendance case to the Department of Justice.

 5. A summary of each report made to the head of the establishment under section (6) (b) (2) during the re-
 porting period.

 No report was made to the Chairman of the FCC under section (6) (b) (2) during this reporting period.

 6. A listing, subdivided according to subject matter, of each audit report issued by the Office during the
 reporting period, and for each audit report, where applicable, the total dollar value of questioned costs (in-
 cluding a separate category for the dollar value of unsupported costs) and the dollar value of recommenda-
 tions that funds be put to better use.

 Each audit report issued during the reporting period is listed according to subject matter and described in
 the “Audit Areas” section and in Tables I and II of this report.

 7. A summary of each particularly significant report.

 Each significant audit and investigative report issued during the reporting period is summarized within the
 audits and investigations sections and in Tables I and II of this report.

 8. Statistical tables showing the total number of audit reports with questioned costs and the total dollar
 value of questioned costs.

 The required statistical table can be found at Table I to this report. See also the statistical estimates of er-
 roneous payments made in the “Universal Service Fund” section of this report.

 9. Statistical tables showing the total number of audit reports with recommendations that funds be put to
 better use and the total dollar value of such recommendations.


46   Reporting Requirements - March 2008
                      reporting requirements
The required statistical table can be found at Table II to this report.

10. A summary of each audit report issued before the commencement of the reporting period for which no
management decision has been made by the end of the reporting period (including the date and title of
each such report), an explanation of the reasons why such a management decision has not been made, and a
statement concerning the desired timetable for achieving a management decision on each such report.

No audit reports fall within this category.

11. A description and explanation of the reasons for any significant revised management decision made
during the reporting period.

No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector General is in
disagreement.

No management decisions fall within this category.

13. Information described under section 05(b) of the Federal Financial Management Improvement Act of
1996.

No reports with this information have been issued during this reporting period.




                                                                    Reporting Requirements - March 20078   47
               reporting requirements
               Table I: OIG Reports With Questioned Costs
                                                     Number of   Questioned    Unsupported
 Inspector General Reports With Questioned Costs
                                                      Reports      Costs          Costs
 A. For which no management decision has been
                                                         _            _                _
 made by the commencement of the reporting period.

 B. Which were issued during the reporting period.      67       $6,170,410            _

 C. For which a management decision was made                     $6,170,410
                                                        67                             _
 during the reporting period.

 (i) Dollar value of disallowed costs                    _            _                _

 (ii) Dollar value of costs not disallowed               _            _                _

 D. For which no management decision has been
                                                         _            _                _
 made by the end of the reporting period.

 Reports for which no management decision was
                                                         _            _                _
 made within six months of issuance.




     Table II: OIG Reports With Recommendations That Funds
                       Be Put To Better Use
 Inspector General Reports With Recommendations
                                                     Number of Reports        Dollar Value
 That Funds Be Put To Better Use

 A. For which no management decision has been
                                                             _                     _
 made by the commencement of the reporting period.

 B. Which were issued during the reporting period.           _                     _
 C. For which a management decision was made
                                                             _                     _
 during the reporting period.
 (i) Dollar value of disallowed costs                        _                     _

 (ii) Dollar value of costs not disallowed                   _                     _
 D. For which no management decision has been
                                                             _                     _
 made by the end of the reporting period.

 Reports for which no management decision was
                                                             _                     _
 made within six months of issuance.

48    Reporting Requirements - March 2008
                                                                  Report Fraud, Waste or Abuse to:


                                                                                           Email
                                                                                      Hotline@FCC.gov

                                                                                       Call Hotline:
                                                                                      202.418.0473 or
                                                                                       888.863.2244



                                                                                   www.FCC.gov/OIG



         The Federal Communications Commission
                        (left to right)
                                                                  You are always welcome to write or visit.
   Deborah Taylor Tate, Commissioner; Michael J. Copps,
Commissioner; Kevin J. Martin, Chairman; Jonathan S. Adelstein,   Office of Inspector General
    Commissioner; Robert M. McDowell, Commissioner                Federal Communications Commission
                                                                  Portals II Building
                                                                  445 12th St., S.W. Room 2-C762
                                    FEDERAL COMMUNICATIONS COMMISSION


                                         OFFICE OF THE
                                      INSPECTOR GENERAL
                                         October 1, 2007 - March 31, 2008




Federal Communications Commission
Office of the Inspector General




445 12th St., SW                                   Kent R. Nilsson
Washington DC 20554
www.FCC.gov/OIG                                  Inspector General
